Board of Governors of The
Federal Reserve System
Financial Statements as of and for the
Years Ended December 31, 2009 and 2008,
and Independent Auditors’  Report
BOARD OF GOVERNORS OF THE FEDERAL RESERVE SYSTEM

TABLE OF CONTENTS


                                                                                       Page

MANAGEMENT’
          S ASSERTI
                  ON                                                                     1

INDEPENDENT AUDITORS’REPORT                                                             2-3

INDEPENDENT AUDITORS' REPORT ON INTERNAL                                                4-5
  CONTROL OVER FINANCIAL REPORTING

FINANCIAL STATEMENTS AS OF AND FOR THE YEARS ENDED
DECEMBER 31, 2009 AND 2008:

 Balance Sheets                                                                          6

 Statements of Revenues and Expenses and Changes in Cumulative Results of Operations     7

 Statements of Cash Flows                                                                8

 Notes to Financial Statements                                                         9–
                                                                                        24

INDEPENDENT AUDITORS’REPORT ON INTERNAL CONTROL OVER FINANCIAL                         25-26
  REPORTING AND ON COMPLIANCE AND OTHER MATTERS BASED ON AN
  AUDIT OF FINANCIAL STATEMENTS PERFORMED IN ACCORDANCE WITH
  GOVERNMENT AUDITING STANDARDS
                                                                                Deloitte & Touche LLP
                                                                                Suite 800
                                                                                1750 Tysons Boulevard
                                                                                McLean, VA 22102-4219
                                                                                USA
                                                                                Tel: +1 703 251 1000
                                                                                Fax: +1 703 251 3400
                                                                                www.deloitte.com




INDEPENDENT AUDITORS' REPORT

The Board of Governors of the Federal Reserve System:

We have audited the accompanying balance sheets of the Board of Governors of the Federal
                                     December 31, 2009 and 2008, and the related statements of
revenues and expenses and changes in cumulative results of operations, and cash flows for the
years then ended.
Our responsibility is to express an opinion on these financial statements based on our audits.

We conducted our audits in accordance with generally accepted auditing standards as established
by the Auditing Standards Board (United States), auditing standards of the Public Company
Accounting Oversight Board (United States), and the standards applicable to financial audits
contained in Government Auditing Standards issued by the Comptroller General of the United
States. Those standards require that we plan and perform the audit to obtain reasonable
assurance about whether the respective financial statements are free of material misstatement.
An audit includes consideration of internal control over financial reporting as a basis for
designing audit procedures that are appropriate in the circumstances. An audit also includes
examining, on a test basis, evidence supporting the amounts and disclosures in the financial
statements, assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall financial statement presentation. We believe that
our audits provide a reasonable basis for our opinion.

In our opinion, such financial statements present fairly, in all material respects, the financial
position of the Board of Governors of the Federal Reserve System as of December 31, 2009 and
2008, and the results of its operations and its cash flows for the years then ended in conformity
with accounting principles generally accepted in the United States of America.

We have also audited, in accordance with the standards of the Public Company Accounting
Oversight Board (United States), the Board's internal control over financial reporting as of
December 31, 2009, based on the criteria established in Internal Control Integrated Framework
issued by the Committee of Sponsoring Organizations of the Treadway Commission and our
report dated March 19, 2010 expressed an unqualified opinion on the Board's internal control
over financial reporting.

In accordance with Government Auditing Standards, we have also issued our report dated March
                                                    th certain provisions of laws, regulations,
contracts, and grant agreements and other matters. The purpose of that report is to describe the
scope of our testing of compliance and the results of that testing, and not to provide an opinion
on compliance. That report is an integral part of an audit performed in accordance with
Government Auditing Standards and should be considered in assessing the results of our audit.




McLean, VA
March 19, 2010
                                                                                   Deloitte & Touche LLP
                                                                                   Suite 800
                                                                                   1750 Tysons Boulevard
                                                                                   McLean, VA 22102-4219
                                                                                   USA
                                                                                   Tel: +1 703 251 1000
                                                                                   Fax: +1 703 251 3400
                                                                                   www.deloitte.com




INDEPENDENT AUDITORS' REPORT ON INTERNAL CONTROL OVER
FINANCIAL REPORTING

The Board of Governors of the Federal Reserve System:

We have audited the internal control over financial reporting of the Board of Governors of the
                                         as of December 31, 2009, based on criteria established in
Internal Control    Integrated Framework issued by the Committee of Sponsoring Organizations
of the Treadway Commission. The Board's management is responsible for maintaining effective
internal control over financial reporting and for its assessment of the effectiveness of internal
control over financial reporting, includ                                                     report.
Our responsibility is to express an opinion on the Board's internal control over financial
reporting based on our audit.

We conducted our audit in accordance with the standards of the Public Company Accounting
Oversight Board (United States). Those standards require that we plan and perform the audit to
obtain reasonable assurance about whether effective internal control over financial reporting was
maintained in all material respects. Our audit included obtaining an understanding of internal
control over financial reporting, assessing the risk that a material weakness exists, testing and
evaluating the design and operating effectiveness of internal control based on the assessed risk,
and performing such other procedures as we considered necessary in the circumstances. We
believe that our audit provides a reasonable basis for our opinion.

                                             reporting is a process designed by, or under the
supervision of, the Boar
performing similar functions, and effected by the Board's Committee on Board Affairs,
management, and other personnel to provide reasonable assurance regarding the reliability of
financial reporting and the preparation of financial statements for external purposes in
accordance with accounting principles generally accepted in the United States of America. The
                                        reporting includes those policies and procedures that (1)
pertain to the maintenance of records that, in reasonable detail, accurately and fairly reflect the

transactions are recorded as necessary to permit preparation of financial statements in accordance
with generally accepted accounting principles, and that receipts and expenditures of the Board
are being made only in accordance with authorizations of management and governors of the
                  rovide reasonable assurance regarding prevention or timely detection of
unauthorized acquisition, use, or disposition of the Board's assets that could have a material
effect on the financial statements.
Because of the inherent limitations of internal control over financial reporting, including the
possibility of collusion or improper management override of controls, material misstatements
due to error or fraud may not be prevented or detected on a timely basis. Also, projections of any
evaluation of the effectiveness of the internal control over financial reporting to future periods
are subject to the risk that the controls may become inadequate because of changes in conditions,
or that the degree of compliance with the policies or procedures may deteriorate.

In our opinion, the Board maintained, in all material respects, effective internal control over
financial reporting as of December 31, 2009, based on the criteria established in Internal Control
   Integrated Framework issued by the Committee of Sponsoring Organizations of the Treadway
Commission.

We have also audited, in accordance with the standards of the Public Company Accounting
Oversight Board (United States), generally accepted auditing standards as established by the
Auditing Standards Board (United States), and the standards applicable to financial audits
contained in Government Auditing Standards issued by the Comptroller General of the United
States, the accompanying balance sheet, statements of revenues and expenses and changes in
cumulative results of operations, and cash flows as of and for the year ended December 31, 2009
of the Board and our report dated March 19, 2010 expressed an unqualified opinion on those
financial statements.




McLean, VA
March 19, 2010
-6-
-7-
-8-
BOARD OF GOVERNORS OF THE FEDERAL RESERVE SYSTEM

NOTES TO FINANCIAL STATEMENTS
AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2009 AND 2008


1.   STRUCTURE

     The Federal Reserve System (the System) was established by Congress in 1913 and consists of the
     Board of Governors (the Board), the Federal Open Market Committee, the twelve regional Federal
     Reserve Banks, the Federal Advisory Council, and the private commercial banks that are members of the
     System. The Board, unlike the Reserve Banks, was established as a federal government agency and is
     supported by Washington, D.C. based staff numbering approximately 2,100, as it carries out its
     responsibilities in conjunction with other components of the Federal Reserve System.

     The Board is required by the Federal Reserve Act (the Act) to report its operations to the Speaker of the
     House of Representatives. The Act also requires the Board, each year, to order a financial audit of each
     Federal Reserve Bank and to publish each week a statement of the financial condition of each such
     Reserve Bank and a consolidated statement for all of the Reserve Banks. Accordingly, the Board
     believes that the best financial disclosure consistent with law is achieved by issuing separate financial
     statements for the Board and for the Reserve Banks. Therefore, the accompanying financial statements
     include only the results of operations and activities of the Board. Combined financial statements for the

     Representatives.

2.   OPERATIONS AND SERVICES

                                                                                     nal financial and
     economic developments. The Board carries out those responsibilities in conjunction with other
     components of the Federal Reserve System. The Board also supervises and regulates the operations of
     the Federal Reserve Banks, exercises broad r
                                                                                Policy regarding open
     market operations is established by the Federal Open Market Committee. However, the Board has sole
     authority over changes in reserve requirements, and it must approve any change in the discount rate
     initiated by a Federal Reserve Bank.

     The Board also plays a major role in the supervision and regulation of the U.S. banking system. It has
     supervisory responsibilities for state-chartered banks that are members of the Federal Reserve System,
     bank holding companies, foreign activities of member banks, and U.S. activities of foreign banks.

3.   SIGNIFICANT ACCOUNTING POLICIES

     Basis of Accounting The Board prepares its financial statements in accordance with accounting
     principles generally accepted in the United States (GAAP).

     Revenues The Federal Reserve Act authorizes the Board to levy an assessment on the Reserve Banks
     to fund its operations. The Board levies the assessment                                and
     surplus balances as of December 31 of the prior year.

     Currency Costs
     Reserve notes), and the Federal Reserve Banks distribute currency and coin through depository


                                                     -9-
institutions. The Board incurs expenses and assesses the Reserve Banks for the expenses related to
producing, issuing, and retiring Federal Reserve notes. The assessment is allocated based on each

for Federal Reserve notes on December 31 of the prior year. These expenses and assessments are
                                                                               ent of Revenues and
Expenses and Changes in Cumulative Results of Operations.

Allowance for Doubtful Accounts       Accounts receivable are shown net of the allowance for doubtful
accounts. Accounts receivable considered uncollectible are charged against the a llowance account in the
year they are deemed uncollectible. The allowance for doubtful accounts is adjusted monthly, based
upon a review of outstanding receivables.

Property, Equipment, and Software The Board s property, buildings, equipment, and software are
stated at cost less accumulated depreciation and amortization. Depreciation and amortization are
calculated on a straight-line basis over the estimated useful lives of the assets, which range from three to
ten years for furniture and equipment, ten to fifty years for building equipment and structures, and two to
ten years for software. Upon the sale or other disposition of a depreciable asset, the cost and related
accumulated depreciation or amortization are removed and any gain or loss is recognized.

            internally developed software projects are each recorded at cost and capitalized and
amortized over              useful life as required by the Internal Use Software Topic of the Financial
Accounting Standards Board (FASB) Accounting Standards Codification (ASC).

Art Collections      The Board has collections of works of art, historical treasures, and similar assets.
These collections are maintained and held for public exhibition in furtherance of public service.
Proceeds from any sales of collections are used to acquire other items for collections. As permitted by
the Revenue Recognition Topic of the ASC, the cost of collections purchased by the Board is charged to
expense in the year purchased and donated collection items are not recorded. The value of the Board s
collections has not been determined.

Deferred Rent      The leases contain scheduled rent increases over the term of the lease. As required by
the Leases Topic of the ASC, rent abatements and scheduled rent increases must be considered in
determining the annual rent expense to be recognized. The deferred rent represents the difference
between the actual lease payments and the rent expense recognized.

Estimates The preparation of financial statements in conformity with GAAP requires management to
make estimates and assumptions that affect the reported amounts of assets and liabilities at the date of
the financial statements and the reported amounts of revenues and expenses during the reporting period.
Actual results could differ from those estimates.

Recently Issued Accounting Standards             The Retirement Benefits Topic of the ASC provides rules
for the disclosure of information about assets held in a defined benefit plan in the financial statements of
the employer sponsoring that plan, and additional disclosures about asset categories and concentrations
of risk. It is effective for financial statements with fiscal years ending after December 15, 2009. The
provisions of the ASC have been reflected in the accompanying footnotes.

The Subsequent Events Topic of the ASC establishes general standards of accounting for and disclosure
of events that occur through the balance sheet date but before financial statements are issued or are
available to be issued. The ASC sets forth (i) the period after the balance sheet date during which
management of a reporting entity should evaluate events or transactions that may occur for potential
                                                          the circumstances under which an entity should


                                                - 10 -
     (iii) the disclosures that an entity should make about events or transactions that occurred after the
     balance sheet date, including disclosure of the date through which an entity has evaluated subsequent
     events and whether that represents the date the financial statements were issued or were available to be
     issued. The Board adopted the standard for the period ended December 31, 2009.

     On June 30, 2009, the FASB issued SFAS No.
     Codification and the Hierarchy of Generally Accepted Accounting Principles a replacement of SFAS
     No. 162, The Hierarchy of Generally Accept                                       168). SFAS 168
     establishes the FASB ASC as the source of authoritative accounting principles recognized by the FASB
     to be applied by entities in the preparation of financial statements in conformity with GAAP. The ASC
     does not change current GAAP, but it introduces a new structure that organizes the authoritative
     standards by topic. SFAS 168 is effective for financial statements issued for periods ending after
     September 15, 2009. In accordance with the requirements of this standard, the ASC is referenced in the


4.   PROPERTY, EQUIPMENT, AND SOFTWARE

     The following is a summary of the components of the Board s property, equipment, and software, at
     cost, net of accumulated depreciation and amortization as of December 31, 2009 and 2008:




     Construction in process includes costs incurred in 2009 and 2008 for long-term projects and building
     enhancements. The Board has accrued liabilities related to property, equipment, and software of
     $7,131,000 as of December 31, 2009.

     The Board entered into capital leases for printing equipment during 2003 that terminated in May 2008.
     The Board subsequently entered into new capital leases in 2008 and 2009. Under the new commitments,
     the capital lease term extends through 2012. Furniture and equipment includes $2,086,000 and
     $1,923,000 in 2009 and 2008, respectively, for capitalized leases. Accumulated depreciation includes
     $789,000 and $280,000 for capitalized leases as of 2009 and 2008, respectively. The Board paid interest
     related to these capital leases in the amount of $36,000 and $26,000 as of December 31, 2009 and 2008,
     respectively. The Board has accrued liabilities related to capital leases of $148,000 as of December 31,
     2009.

     The Board has leased space in its buildings to other governmental agencies. The revenues collected from
     these leases are $2,037,000 and $2,034,000 in 2009 and 2008, respectively.



                                                    - 11 -
     The future minimum lease payments required under the capital leases and the present value of the net
     minimum lease payments as of December 31, 2009, are as follows:




5.   ACCUMULATED RETIREMENT BENEFITS

     Substantially all of the Board s employees participate in the Retirement Plan for Employees of the
     Federal Reserve System (the System Plan). The System Plan provides retirement benefits only to
     employees of the Board, the Federal Reserve Banks, and the Office of Employee Benefits of the Federal
     Reserve System (OEB). The Federal Reserve Bank of New York (FRB NY), on behalf of the System,
     recognizes the net assets and costs associated with the System Plan in its financial statements. Costs
     associated with the System Plan are not redistributed to other participating employers.

     Employees of the Board who became employed prior to 1984 are covered by a contributory defined
     benefits program under the System Plan. Employees of the Board who became employed after 1983 are
     covered by a non-contributory defined benefits program under the System Plan. Contributions to the
     System Plan are actuarially determined and funded by participating employers. In 2009, the System
     made $500 million in contributions to the System Plan                   may be adjusted upon
     completion of the 2010 actuarial valuation. The Board was not assessed a contribution for 2009.




                                                   - 12 -
Effective January 1, 1996, Board employees covered under the System Plan are also covered under a
Benefits Equalization Plan (BEP). Benefits paid under the BEP are limited to those benefits that cannot
be paid from the System Plan due to limitations imposed by Sections 401(a)(17), 415(b) and 415(e) of
the Internal Revenue Code of 1986. Activity for the BEP as of December 31, 2009 and 2008, is
summarized in the following tables:

                                                                             2009               2008

  Change in projected benefit obligation:
                                                                       $ 4,591,374        $ 2,201,675
   Service cost                                                            712,515            589,094
   Interest cost                                                           307,501            213,714

   Actuarial (gain) loss                                                    (175,635)         1,137,486
   Gross benefits paid                                                       (27,649)           (35,016)
   Plan amendments                                                           492,461            484,421
                                                                       $ 5,900,567        $ 4,591,374

                                                                       $ 1,245,465        $ 1,267,005
  Weighted-average assumptions used to determine
   benefit obligation as of December 31:
   Discount rate                                                                 6.00 %             6.00 %
   Rate of compensation increase                                                 5.00 %             5.00 %
  Change in plan assets:
                                                                       $         -        $         -
   Employer contributions                                                     27,649             35,016

   Gross benefits paid                                                       (27,649)           (35,016)
                                                                       $         -        $         -
  Funded status:

     Fair value of plan assets                                         $         -        $         -
     Benefit obligations                                                   5,900,567          4,591,374
         Funded status                                                     (5,900,567)        (4,591,374)
                                                                       $ (5,900,567)      $ (4,591,374)
   Amounts recognized in the statements of financial
    position consist of:
    Asset                                                              $          -       $          -
    Liability                                                              (5,900,567)        (4,591,374)
   Net amount recognized                                               $ (5,900,567)      $ (4,591,374)
   Amounts recognized in accumulated other
    comprehensive income consist of:
    Net actuarial loss (gain)                                          $ 1,708,854        $ 2,031,269
    Prior service cost (credit)                                            714,123            256,919
                                                                       $ 2,422,977        $ 2,288,188



                                               - 13 -
  Expected cash flows:
                                                                    $ 111,143
   Expected benefit payments:*
    2010                                                            $ 111,143
    2011                                                               149,745
    2012                                                               183,388
    2013                                                               210,792
    2014                                                               232,368
                                                                     1,421,730
  *Expected benefit payments to be made from System assets
                                                                        2009                2008
  Components of net periodic benefit cost:
   Service cost                                                     $ 712,515           $ 589,094
   Interest cost                                                      307,501             213,714
   Expected return on plan assets
   Amortization:
    Actuarial (gain) loss                                              146,780             112,474
    Prior service (credit) cost                                         35,257              (5,902)
  Net periodic benefit cost (credit)                                $ 1,202,053         $ 909,380
  Weighted-average assumptions used to determine
   net periodic benefit cost:
   Discount rate                                                           6.00 %              6.25 % **
   Rate of compensation increase                                           5.00 %              5.00 %
  ** In 2008, amendments to the System Plan were approved. As a result, the actuarially
   determined net periodic benefit expenses for the year ended December 31, 2008, were
   remeasured with a discount rate of 7.75% as of November 1, 2008.
  Other changes in plan assets and benefit obligations
   recognized in other comprehensive income: ***
   Current year prior service (credit) cost                         $ 492,461           $ 484,421
   Current year actuarial (gain) loss                                 (175,635)          1,137,486
   Amortization of prior service credit (cost)                         (35,257)              5,902
   Amortization of actuarial gain (loss)                              (146,780)           (112,474)
  Total recognized in other comprehensive income                    $ 134,789           $ 1,515,335
  Total recognized in net periodic benefit cost and
   other comprehensive income                                       $ 1,336,842         $ 2,424,715

  *** For the Benefit Equalization Plan, other changes to assets and benefits recognized in other
    comprehensive income will be reflected in net periodic cost.

Estimated amounts that will be amortized from accumulated other comprehensive income into net
periodic benefit cost (credit) in 2010 are shown below:




                                               - 14 -
On October 30, 2008, the Board approved a non-qualified plan for Officers of the Board. The retirement
benefits covered under the Board Officer Pension Enhancement (BOPE), formerly the Supplemental
Employee Retirement Plan (BSERP), increases the pension benefit calculation from 1.8% above the
Social Security integration level to 2.0%. Activity for the BOPE as of December 31, 2009 and 2008, is
summarized in the following tables:

                                                                           2009               2008
  Change in projected benefit obligation:
                                                                     $ 6,275,285        $       -
   Service cost                                                          333,034               37,190
   Interest cost                                                         402,680               56,010

   Actuarial (gain) loss                                                   286,440          1,607,199
   Gross benefits paid
   Plan amendments                                                        (176,619)         4,574,886
                                                                     $ 7,120,820        $ 6,275,285
                                                                     $ 5,175,331        $ 4,530,540
  Weighted-average assumptions used to determine
   benefit obligation as of December 31:
   Discount rate                                                               6.00 %             6.00 %
   Rate of compensation increase                                               5.00 %             5.00 %
  Change in plan assets:
                                                                     $        -         $        -
   Employer contributions

   Gross benefits paid
                                                                     $        -         $        -
  Funded status:

    Fair value of plan assets                                        $       -          $       -
    Benefit obligations                                                  7,120,820          6,275,285
         Funded status                                                   (7,120,820)        (6,275,285)
                                                                     $ (7,120,820)      $ (6,275,285)
   Amounts recognized in the statements of financial
    position consist of:
    Asset                                                            $        -         $        -
    Liability                                                            (7,120,820)        (6,275,285)
   Net amount recognized                                             $ (7,120,820)      $ (6,275,285)




                                              - 15 -
                                                                       2009              2008
 Amounts recognized in accumulated other
  comprehensive income consist of:
  Net actuarial loss (gain)                                       $ 1,742,746       $ 1,607,199
  Prior service cost (credit)                                       3,774,673         4,482,687

                                                                  $ 5,517,419       $ 6,089,886

Expected cash flows:
                                                                  $     41,829

 Expected benefit payments:****
  2010                                                            $      41,829
  2011                                                                   75,298
  2012                                                                  115,587
  2013                                                                  161,773
  2014                                                                  215,737
                                                                      1,967,583
****Expected benefit payments to be made from System assets

Components of net periodic benefit cost:
 Service cost                                                     $    333,034      $     37,190
 Interest cost                                                         402,680            56,010
 Expected return on plan assets
 Amortization:
  Actuarial (gain) loss                                                150,893
  Prior service (credit) cost                                          531,395            92,199

Net periodic benefit cost (credit)                                $ 1,418,002       $    185,399

Weighted-average assumptions used to determine
 net periodic benefit cost:
 Discount rate                                                             6.00 %           7.75 %
 Rate of compensation increase                                             5.00 %           5.00 %

Other changes in plan assets and benefit obligations
 recognized in other comprehensive income:*****
 Current year prior service (credit) cost                         $   (176,619)     $ 4,574,886
 Current year actuarial (gain) loss                                    286,440        1,607,199
 Amortization of prior service credit (cost)                          (531,395)         (92,199)
 Amortization of actuarial gain (loss)                                (150,893)

Total recognized in other comprehensive income                    $   (572,467)     $ 6,089,886

Total recognized in net periodic benefit cost and
 other comprehensive income                                       $    845,535      $ 6,275,285

*****For the Board Officer Pension Enhancement, other changes in assets and benefits recognized
 in other comprehensive income will be reflected in net periodic cost.




                                              - 16 -
Estimated amounts that will be amortized from accumulated other comprehensive income into net
periodic benefit cost (credit) in 2010 are shown below:




The total accumulated retirement benefit obligation for both the Benefits Equalization Plan (BEP) and
Board Officer Pension Enhancement (BOPE) as of December 31, 2009 and 2008, are as follows:

                                                                          2009              2008

  Accumulated retirement benefit obligation:
                                                                     $ 5,900,567       $ 4,591,374
                                                                       7,120,820         6,275,285

  Total accumulated retirement benefit obligation                    $ 13,021,387      $ 10,866,659

A relatively small number of Board employees participate in the Civil Service Retirement System
(CSRS) or the Federal Employees Retirement System (FERS). These defined benefit plans are
administered by the U.S. Office of Personnel Management, which determines the required employer
contribution levels. The Board s contributions to these plans totaled $329,000 and $305,000 in 2009 and
2008, respectively. The Board has no liability for future payments to retirees under these programs and
is not accountable for the assets of the plans.

Employees of the Board may also participate in the Federal Reserve System s Thrift Plan or Roth
401(k). Board contributions to members accounts were $14,342,000 and $11,815,000 in 2009 and 2008,
respectively.




                                               - 17 -
6.   ACCUMULATED POSTRETIREMENT BENEFITS

     The Board provides certain life insurance programs for its active employees and retirees. Activity as of
     December 31, 2009 and 2008, is summarized in the following tables:

                                                                                  2009               2008

       Change in projected benefit obligation:
                                                                            $ 8,527,800        $ 7,972,469
        Service cost                                                            169,687            176,450
        Interest cost                                                           516,194            505,691

        Actuarial (gain) loss                                                     361,009            439,003
        Gross benefits paid                                                      (270,366)          (315,611)
        Curtailments                                                                                (250,202)

                                                                            $ 9,304,324        $ 8,527,800

       Weighted-average assumptions used to determine
                                                                                      5.75 %             6.00 %

       Change in plan assets:
                                                                            $       -          $       -
        Employer contributions                                                    270,366            315,611
        Gross benefits paid                                                      (270,366)          (315,611)

                                                                            $        -         $        -

       Funded status:

          Fair value of plan assets                                         $       -          $       -
          Benefit obligations                                                   9,304,324          8,527,800

                 Funded status                                                  (9,304,324)        (8,527,800)

                                                                            $ (9,304,324)      $ (8,527,800)

        Amounts recognized in the statements of financial
         position consist of:
         Asset                                                              $        -         $        -
         Liability                                                              (9,304,324)        (8,527,800)

        Net amount recognized                                               $ (9,304,324)      $ (8,527,800)




                                                    - 18 -
                                                                 2009               2008

 Amounts recognized in accumulated other
  comprehensive income consist of:
  Net actuarial loss (gain)                                  $ 1,528,733        $ 1,223,601
  Prior service cost (credit)                                   (302,024)          (327,513)

                                                             $ 1,226,709        $ 896,088

Expected cash flows:
                                                             $ 342,502          $ 321,938

 Expected benefit payments:*
  2010                                                       $ 342,502
  2011                                                          361,970
  2012                                                          381,110
  2013                                                          408,919
  2014                                                          436,116
                                                              2,570,408
*Expected benefit payments to be made from System assets

Components of net periodic benefit cost:
 Service cost                                                $ 169,687          $ 176,450
 Interest cost                                                 516,194            505,691
 Expected return on plan assets
 Amortization:
  Actuarial (gain) loss                                          55,878              19,104
  Prior service (credit) cost                                   (25,490)            (12,430)

Net periodic benefit cost (credit)                           $ 716,269          $ 688,815

Weighted-average assumptions used to determine
                                                                    6.00 %             6.25 % **

** In 2008, amendments to the Plan were approved. As a result, the actuarially determined
 net periodic benefit expenses for the year ended December 31, 2008, were remeasured
 with a discount rate of 7.75% as of November 1, 2008.

Other changes in plan assets and benefit obligations
 recognized in other comprehensive income:
 Current year actuarial (gain) loss                          $ 361,009          $ 439,003
 Amortization of prior service credit (cost)                    25,490              12,430
 Amortization of actuarial gain (loss)                         (55,878)            (19,104)
                                                                                  (250,202)

Total recognized in other comprehensive income               $ 330,621          $ 182,127

Total recognized in net periodic benefit cost and
 other comprehensive income                                  $ 1,046,890        $ 870,942




                                            - 19 -
     Estimated amounts that will be amortized from accumulated other comprehensive income into net
     periodic benefit cost (credit) in 2010 are shown below:




7.   ACCUMULATED POSTEMPLOYMENT BENEFITS

     The Board provides certain postemployment benefits to eligible former or inactive employees and their
     dependents during the period subsequent to employment but prior to retirement. Postemployment costs
     were actuarially determined using a December 31 measurement date and discount rates of 4.00% and
     2.50% as of December 31, 2009 and 2008, respectively. The accrued postemployment benefit costs
     recognized by the Board as of December 31, 2009 and 2008, were $1,754,000 and $5,974,000,
     respectively.

8.   ACCUMULATED OTHER COMPREHENSIVE INCOME

     A reconciliation of beginning and ending balances of accumulated other comprehensive income for the
     years ended December 31, 2009 and 2008, is as follows:

                                                                                    Amount Related to     Total Accumulated
                                                                Amount Related to     Postretirement             Other
                                                                  Defined Benefit   Benefits Other Than    Comprehensive
                                                                 Retirement Plans       Pensions            Income (Loss)

                                                                  $ 772,853            $ 713,961            $ (1,486,814)

       Change in funded status of benefit plans:
        Prior service (credit) cost arising during the year            5,059,307                             (5,059,307)
        Amortization of prior service credit (costs)                     (86,297)          12,430                73,867
        Amortization of net actuarial gain (loss)                       (112,474)         (19,104)              131,578
        Net actuarial (gain) loss arising during the year              2,744,685          439,003            (3,183,688)
                                                                                         (250,202)              250,202

              Change in funded status of benefit
                                                                       7,605,221          182,127            (7,787,348)

                                                                       8,378,074          896,088            (9,274,162)

       Change in funded status of benefit plans:
        Prior service (credit) cost arising during the year              315,842                               (315,842)
        Amortization of prior service credit (costs)                    (566,652)          25,490               541,162
        Amortization of net actuarial gain (loss)                       (297,673)         (55,878)              353,551
        Net actuarial (gain) loss arising during the year                110,805          361,009              (471,814)

              Change in funded status of benefit
                                                                        (437,678)         330,621               107,057

                                                                  $ 7,940,396          $ 1,226,709          $ (9,167,105)


     Additional detail regarding the classification of accumulated other comprehensive income is included in
     Notes 5 and 6.



                                                              - 20 -
9.   FEDERAL RESERVE BANKS

     The Board performs certain functions for the Reserve Banks in conjunction with its responsibilities for
     the System, and the Reserve Banks provide certain administrative functions for the Board. Activity
     related to the Board and Reserve Banks as of December 31, 2009 and 2008, is summarized in the
     following table:

                                                                              2009               2008

       Reserve Bank expenses charged to the Board:
        Data processing and communication                                $     776,835      $   2,368,144
        Contingency site                                                     1,171,808          1,265,618

       Total Reserve Bank expenses charged to the Board                  $   1,948,643      $   3,633,762

       Board expenses charged to the Reserve Banks:
        Assessments for currency costs:
         Printing                                                        $ 479,255,288      $ 477,927,083
         Shipping                                                           15,367,546         14,984,564
         Retirement                                                          3,608,937          3,722,146
         Research and development                                            3,913,112          3,723,101
        Assessments for operating expenses of the Board                    386,399,900        352,290,700
        Data processing                                                        635,235            601,957

       Total Board expenses charged to the Reserve Banks                 $ 889,180,018      $ 853,249,551

       Accounts receivable due from the Reserve Banks                    $   1,071,932      $   1,016,688
       Accounts payable due to the Reserve Banks                                                  295,848

     The Board contracted for audit services on behalf of entities that are included in the combined financial
     statements of the Federal Reserve Banks. The entities reimburse the Board for the cost of the audit
     services. The Board accrued liabilities of $138,000 and $313,000 in audit services and recorded
     receivables of $138,000 and $313,000 from the entities as of December 31, 2009 and 2008, respectively.




                                                    - 21 -
10. FEDERAL FINANCIAL INSTITUTIONS EXAMINATION COUNCIL

   The Board is one of the five member agencies of the Federal Financial Institutions Examination Council
   (the Council), and currently performs certain management functions for the Council. The five agencies
   that are represented on the Council are the Board, Federal Deposit Insurance Corporation, National
   Credit Union Administration, Office of the Comptroller of the Currency, and Office of Thrift
   Supervision. The Board s financial statements do not include financial data for the Council. Activity
   related to the Board and Council, as of December 31, 2009 and 2008, is summarized in the following
   table:

                                                                                 2009            2008

     Council expenses charged to the Board:
      Assessments for operating expenses                                   $      67,998     $ 164,889
      Central Data Repository                                                  1,522,597      1,352,390
      Uniform Bank Performance Report                                            210,293        185,833

     Total Council expenses charged to the Board                           $ 1,800,888       $ 1,703,112

     Board expenses charged to the Council:
      Data processing related services                                     $ 4,884,868       $ 4,683,363
      Administrative services                                                  245,000           190,400

     Total Board expenses charged to the Council                           $ 5,129,868       $ 4,873,763

     Accounts receivable due from the Council                              $ 618,861         $ 650,672
     Accounts payable due to the Council                                     209,922           373,466

11. THE OFFICE OF EMPLOYEE BENEFITS OF THE FEDERAL RESERVE SYSTEM

   The Office of Employee Benefits of the Federal Reserve System (OEB) administers certain System
   benefit programs on behalf of the Board and the Reserve Banks, and costs associated with the OEB s
   activities are assessed to the Board and Reserve Banks. The Board was assessed $2,166,000 and
   $2,867,000 as of December 31, 2009 and 2008, respectively.

12. BUREAU OF ENGRAVING AND PRINTING

   The Bureau of Engraving and Printing (BEP) is the principal supplier for currency printing and
   retirement services. The currency costs incurred as of December 31, 2009 and 2008, are reflected in the
   following table:

                                                                            2009                2008

     Currency expenses charged to the Board:
      Printing                                                        $ 479,255,288        $ 477,927,083
      Retirement                                                          3,608,937            3,722,146

     Total currency expenses charged to the Board                     $ 482,864,225        $ 481,649,229




                                                 - 22 -
13. COMMITMENTS AND CONTINGENCIES

   Leases    The Board has entered into several operating leases to secure office, training and warehouse
   space. The Board has subleased space to other governmental agencies. The sublease agreements are
   annual and the revenue collected was $467,000 and $468,000 for 2009 and 2008, respectively.

   Minimum annual payments under the operating leases having an initial or remaining non-cancelable
   lease term in excess of one year at December 31, 2009, are as follows:

     Years Ending
     December 31

     2010                                                                                     $ 6,297,594
     2011                                                                                       6,335,714
     2012                                                                                       6,414,807
     2013                                                                                       6,608,976
     After 2013                                                                                42,414,511

                                                                                              $ 68,071,602

   Rental expenses under the operating leases were $3,947,000 and $2,207,000 for the years ended
   December 31, 2009 and 2008, respectively.

   Deferred Leases    The change in deferred rent was $1,666,000 and $537,000 for the years ended
   December 31, 2009 and 2008, respectively.

   Commitments The Board has entered into an agreement with the Federal Deposit Insurance
   Corporation and the Office of the Comptroller of the Currency, through the Council , to fund a portion of
   the enhancements and maintenance fees for a central data repository project through 2010 with an option
   to extend maintenance through 2013. The estimated Board expense to support this effort is $7.9 million
   for the base period and $2.6 million for the option period.

   In 2007, the Council began a rewrite of the Home Mortgage Disclosure Act processing system, for
   which the Board provides data processing services. The estimated total expense to the Council of the
   rewrite is $3.2 million through 2010. The estimated total Board expense to support this effort with the
   maintenance extension option is $533,000.

   Accrued liabilities include a federal tax liability estimated at $494,000 for the Board and its employees.
   The Board expects to pay the liability during 2010.

   Litigation and Contingent Liabilities        The Board is subject to contingent liabilities which arise from
   litigation cases and various business contracts. These contingent liabilities arise in the normal course of
   operations and their ultimate disposition is unknown. Based on information currently available to
   management, it is management s opinion that the expected outcome of these matters, individually or in
   the aggregate, will not have a materially adverse effect on the financial statements.




                                                   - 23 -
   One case alleges employment discrimination under Title VII of the Civil Rights Act of 1964, as
   amended, and the Age Discrimination in Employment Act, and is pending in the United States District
   Court for the District of Columbia. The second case is an action alleging discrimination on behalf of a
   class of African American secretaries at the Board. The case was dismissed by the United States District
   Court for the District of Columbia on January                                                    nd
   judgment was denied by that court on March 2, 2009. The plaintiffs have appealed the dismissal to the
   United States Court of Appeals for the District of Columbia circuit. The Board has substantial defenses
   for both cases and intends to defend the matters vigorously. Management believes that the likelihood of
   an adverse judgment for both cases is small.

   The estimated contingent liabilities related to business contracts were $0 and $69,720 as of
   December 31, 2009 and 2008, respectively.

14. SUBSEQUENT EVENTS

   There were no subsequent events that require adjustments to or disclosures in the financial statements as
   of December 31, 2009. Subsequent events were evaluated through March 19, 2010, which is the date the
   Board issued the financial statements.

                                               ******




                                                  - 24 -
                                                                                   Deloitte & Touche LLP
                                                                                   Suite 800
                                                                                   1750 Tysons Boulevard
                                                                                   McLean, VA 22102-4219
                                                                                   USA
                                                                                   Tel: +1 703 251 1000
                                                                                   Fax: +1 703 251 3400
                                                                                   www.deloitte.com




FINANCIAL REPORTING AND ON COMPLIANCE AND OTHER MATTERS BASED
ON AN AUDIT OF FINANCIAL STATEMENTS PERFORMED IN ACCORDANCE
WITH GOVERNMENT AUDITING STANDARDS

The Board of Governors of the Federal Reserve System:

We have audited the financial statements of the Board of Governors of the Federal Reserve

report thereon dated March 19, 2010. We conducted our audit in accordance generally accepted
auditing standards as established by the Auditing Standards Board (United States), auditing
standards of the Public Company Accounting Oversight Board (United States), and the standards
applicable to financial audits contained in Government Auditing Standards, issued by the
Comptroller General of the United States.

Internal Control over Financial Reporting

In accordance with standards of the Public Company Accounting Oversight Board (United
States) and Government Auditing Standards, we have also issued our report dated March 19,
                                                                               The purpose of that
report is to describe the scope and the results of that testing. That report is an integral part of an
audit performed in accordance with standards of the Public Company Accounting Oversight
Board (United States) and Government Auditing Standards and should be considered in assessing
the results of our audit.

Compliance and Other Matters


free of material misstatement, we performed tests of its compliance with certain provisions of
laws, regulations, contracts, and grant agreements, noncompliance with which could have a
direct and material effect on the determination of financial statement amounts. However,
providing an opinion on compliance with those provisions was not an objective of our audit, and
accordingly, we do not express such an opinion. The results of our tests disclosed no instances of
noncompliance or other matters that are required to be reported under Government Auditing
Standards.
Distribution

This report is intended solely for the information and use of the Board, management, and others
within the organization, Office of Inspector General, the United States Congress, and is not
intended to be and should not be used by anyone other than these specified parties.




McLean, VA
March 19, 2010
